March 26, 1999

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

YVONNE D. MAGUIRE
VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:      Effectiveness of United States Postal
              Service (USPS) Grievance-Arbitration
              Procedures, Management Advisory
              Report Number
              (LM-MA-99-002)

This report is designed to provide feedback on surveys,
interviews, and case file reviews conducted at 10
USPS districts during May and June 1998 (Project
Number 99-EA-009-LR-002).

The unions and USPS share responsibility for ensuring
the effectiveness of the grievance-arbitration process.
The unions are responsible for consolidating
grievances dealing with similar issues, ensuring that
grievances without merit are withdrawn or resolved
early in the process, and where possible, working with
USPS managers to settle workplace disputes. USPS
managers and supervisors are required to meet with
employees and their union representatives at
grievance-arbitration Steps 1 and 2 and render
decisions within time limits stipulated by the national
agreements. In February 1998 the Postmaster General
issued a directive reaffirming USPS’ responsibility to
resolve disputes at the lowest possible level in
accordance with the grievance-arbitration procedures
established by the current national agreements
between the USPS and employee unions.




    Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                          LM-MA-99-002




Results in Brief	              Our visits to the ten USPS districts disclosed that Step
                               1 and 2 grievance-arbitration procedures are generally
                               not being administered as required by the national
                               agreements.1 As a result, the grievance-arbitration
                               procedures are not effective in resolving grievances at
                               the lowest possible level. Specifically:

                                   •	 Supervisors and Step 2 designees in at least
                                      three districts2 did not meet 10 to 17 percent of
                                      the time at Steps 1 and 2 or rendered timely
                                      decisions. When meetings did not occur,
                                      employees sometimes filed additional
                                      grievances on the same problems. When asked
                                      why meetings were not held, supervisors and
                                      Step 2 designees indicated that their operational
                                      responsibilities left little time to hold meetings.
                                      Labor relations specialists also indicated that
                                      Step 2 meetings are not held because there are
                                      an insufficient number of Step 2 designees in
                                      certain locations. Employees, union officials,
                                      and labor relations specialists frequently
                                      expressed concerns that the lack of meetings at
                                      Steps 1 and 2 will continue to be a problem as
                                      long as managers are not held accountable for
                                      complying with the grievance-arbitration
                                      procedures. Not meeting with employees
                                      perpetuates workplace disputes and causes
                                      them to develop into larger issues.

                                   •	 When Step 1 and 2 meetings were held, 81
                                      percent of supervisors and 74 percent of Step 2
                                      designees we interviewed neither made offers
                                      nor took actions to resolve disputes. When
                                      offers were made at Step 1, they were frequently
                                      accepted by union representatives and
                                      employees. Supervisors and Step 2 designees
                                      told us that they lacked authority and believed it
                                      inappropriate to resolve grievances for letters of

1
 This finding is based on interviews with grievance parties and a review of grievance files. We
also believe such information reflects grievance practices throughout USPS because
interviewees were selected based on a statistical sampling plan designed to provide projectable
results across the nation.
2
 We noted this practice in nine districts we visited; however, the practice was most extensive in
the Boston, San Antonio, and Springfield districts.

                                               2

                                    Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                            LM-MA-99-002



                                        demand, removals, and discipline related to
                                        safety violations or time and attendance at Steps
                                        1 or 2. They believed settling such issues would
                                        negatively impact operations and employee
                                        performance. Supervisors and Step 2
                                        designees also indicated they lacked authority to
                                        settle grievances involving payment of overtime
                                        not worked, staffing decisions, and crossing craft
                                        complaints. Supervisors and Step 2 designees
                                        also attributed their inaction to their lack of
                                        independence from the decisions that were
                                        grieved, especially disciplinary actions.
                                        Additionally, poor relationships between the
                                        grievance parties sometimes impacted the
                                        effectiveness of the Step 1 and 2 meetings.

                                   •	 Eighty-two percent of the supervisors we
                                      interviewed believed they lacked authority to
                                      settle grievances at Step 1. Fifty-seven percent
                                      indicated that their superiors overrode or
                                      circumvented their authority to settle
                                      grievances.3 This occurred most frequently
                                      where grievances involved monetary settlements
                                      or reductions in disciplinary actions. Supervisors
                                      also believed that their superiors indirectly
                                      controlled the outcome of grievance settlements
                                      by second-guessing4 their decisions. They
                                      indicated this eventually forced them to stop
                                      making settlement offers at Step 1. As long as
                                      supervisor authority to settle grievances can be
                                      undermined, we believe that a large volume of
                                      grievances will continue to be appealed.

Background	                    The national agreements between the USPS and its
                               four major employee unions establish grievance­
                               arbitration procedures that provide USPS craft
                               employees and union officials with a means to
                               discuss and resolve their complaints concerning
                               working conditions and management’s administration.
                               These procedures are designed to quickly settle labor­
                               management disputes that can often impair
3
  These superiors included Postmasters, Station Managers, Managers of Distribution
Operations (MDOs), or Managers of Postal Operations (MPOs).
4
  Second-guessing is defined as criticizing actions or decisions after the results of those actions
or decisions are known.

                                                3

                                     Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                        LM-MA-99-002



                                 organizational productivity.

                                 The grievance-arbitration procedures require that an
                                 aggrieved employee or a union representative discuss
                                 the grievance with the employee’s immediate
                                 supervisor within 14 days of the grievable incident
                                 (Step 1). If no resolution is achieved at Step 1, the
                                 grievance is appealed, and a USPS Step 2 designee
                                 must meet with the union representative within seven
                                 days of the appeal (Step 2) for the American Postal
                                 Workers Union (APWU), National Postal Mail Handlers
                                 Union (NPMHU), and National Association of Letter
                                 Carriers (NALC) grievances and within ten days for the
                                 National Rural Letter Carriers’ Association (NRLCA)
                                 grievances. These procedures are designed to ensure
                                 that all of the issues and facts are identified and
                                 considered by both parties and to facilitate settlement
                                 of grievances as expeditiously as possible. Failure to
                                 conduct a meeting or to render a decision within the
                                 allotted time moves the grievance to the next step of
                                 the grievance-arbitration process.5

                                 The national agreements also stipulate that the union
                                 representative shall have full authority to settle or
                                 withdraw the grievance in whole or in part. The USPS
                                 representatives (supervisors and Step 2 designees),
                                 likewise, shall have full authority to grant, settle, or
                                 deny the grievance in whole or in part. In some
                                 districts, the Step 2 designee responsibilities are
                                 assigned to district labor relations specialists. In other
                                 districts, the responsibilities are fulfilled by operations
                                 managers, such as Postmasters, Station Managers,
                                 and MDOs.

Objectives, Scope,               As a first step in a continuing review of grievances in
and Methodology                  USPS, we focused our review largely on
                                 management’s administration of the grievance­
                                 arbitration process. Specific audit objectives include
                                 identifying actions that USPS can take to (1) resolve
                                 workplace disputes before they become grievances,
                                 and (2) settle grievances as early as practical.



5
    Both parties can agree to an extension.

                                                 4
                                      Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                           LM-MA-99-002



                               In answering our second audit objective, we visited 10
                               of 85 postal districts.6 At these districts, we interviewed
                               employees, union stewards, supervisors, and Step 2
                               designees who were involved in approximately 200
                               closed grievances that had been filed during the period,
                               1995 through 1997. We also interviewed plant and
                               district managers, labor relations specialists, and local
                               union presidents at the 10 districts. We met with
                               national presidents of the APWU, NALC, NPMHU,
                               NRLCA, National Association of Postal Supervisors,
                               National Association of Postmasters of the United
                               States, and the National League of Postmasters.
                               Finally, we surveyed plant and district managers and
                               union National Business Agents.

                               Using the USPS Grievance and Arbitration Tracking
                               System, that contains data on grievances at Step 3 and
                               above, we determined the volume, nature, and sources
                               of grievance activity. We then selected ten postal
                               districts to visit based on the number of grievances in
                               those districts. From these districts a sample of
                               approximately 200 grievances was selected using
                               probability proportional to size, where the size measure
                               was the number of grievances in the district. Although
                               we relied on computer-generated data from Grievance
                               and Arbitration Tracking System for case selection, we
                               tested this data with supporting documentation from
                               grievance case files and through discussions with labor
                               relations personnel at the ten districts. Our tests
                               disclosed that Grievance and Arbitration Tracking
                               System data on case status for some grievances
                               inaccurately reported open cases as “closed.”7 Where
                               that occurred, we replaced the cases in our sample.

                               At the ten sites visited, we reviewed grievance case
                               files and conducted interviews with grievance parties,
                               plant and district managers, some local union
                               presidents and labor relations specialists. We also
                               reviewed national agreements between the USPS and
                               APWU, NALC, NPMHU, and NRLCA and memoranda
                               of understanding with local unions at facilities we

6
  Boston, Cincinnati, Columbia, Fort Worth, Gateway, Long Island, Pittsburgh, San Antonio,
Springfield, and Tennessee.
7
  The reliability of GATS data is discussed in our report entitled Grievance and Arbitration
Management Information (LM-MA-99-001).

                                               5

                                    Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                            LM-MA-99-002



                               visited.

                               Our methodology was developed in consultation with
                               the Postal Inspection Service, USPS Office of Labor
                               Relations, Federal Conciliation and Mediation Service,
                               the Offices of Inspector General for the Federal
                               Aviation Administration and Department of Labor, a
                               consultant for Laborers International Union of Northern
                               America, and a former Senior Assistant Postmaster
                               General for USPS. Consultants were used on this
                               audit to obtain contextual background for cultural,
                               operational, and technical factors affecting the
                               grievance-arbitration process.

                               Our overall audit of grievance and arbitration
                               procedures is being conducted in accordance with
                               generally accepted government audit standards. This
                               management advisory report was prepared in
                               accordance with the President’s Council on Integrity
                               and Efficiency, Quality Standards for Inspections. We
                               visited USPS districts during May and June 1998.

                                        Observations - Step 1 and 2 Meetings
Meetings at Steps 1            Our review disclosed that supervisors and Step 2
and 2 of Grievance-            designees in at least three districts did not meet 10 to
Arbitration Process            17 percent8 of the time at Steps 1 and 2 to adjudicate
                               workplace disputes, as required by the grievance­
                               arbitration procedure.9 Grievance parties also
                               indicated that Step 1 and 2 decisions are often not
                               rendered within the time stipulated. For example,
                               union officials in Boston provided 50 recent examples
                               of meetings not being scheduled or Step 2 officials
                               failing to show up for scheduled meetings. Case file
                               documentation also supported the lack of meetings at
                               Steps 1 and 2.

                               Employees and union stewards also believe that not
                               meeting to discuss grievances contributed to poor
                               working relationships and often led to filing of additional
                               grievances on the same problems. Some employees

8
  This percentage represents only those cases we sampled. However, we believe this
percentage to be significantly higher based on interviews with labor relations specialists and
union officials.
9
  We noted this practice in nine of the districts we visited, however, the practice was most
extensive in the Boston, San Antonio and Springfield districts.

                                               6

                                    Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                                 LM-MA-99-002



                                 indicated that they would have withdrawn their
                                 grievances had management shown a willingness to
                                 work with them. Others indicated that they just wanted
                                 an opportunity to be heard and would have accepted
                                 almost any kind of settlement offer.

Availability of        When asked why meetings were not held supervisors
Supervisors and Step 2 and Step 2 designees told us that operational
Designees              responsibilities left little time available to hold meetings.
                       Labor relations specialists also indicated that Step 2
                       meetings are not held because there are an insufficient
                       number of Step 2 designees in certain locations.10
                       Even when the Step 2 designee responsibilities were
                       assumed by labor relations specialists, we noted that
                       competing responsibilities interfered with their ability to
                       hold Step 2 meetings. For example, labor relations
                       specialists are also responsible for grievance
                       arbitration, Equal Employment Opportunity and Merit
                       Systems Protection Board advocacy, and assist USPS’
                       Law Department in the research and settlement of
                       unfair labor practices.

Accountability of      Employees, union officials, and labor relations
Supervisors and Step 2 specialists frequently shared their beliefs that the lack
Designees              of meetings at Steps 1 and 2 will continue as long as
                       supervisors and Step 2 designees are not held
                       accountable for complying with the grievance­
                       arbitration procedures. Labor relations specialists in
                       nine districts and plant and district managers in every
                       district told us that they do not monitor compliance with
                       the grievance-arbitration procedures. Not discussing
                       grievances with employees perpetuates workplace
                       disputes and causes them to develop into larger
                       issues.
                                      Observations- Efforts to Settle Grievances
Settlement Offers                Eighty-one percent of supervisors11 we interviewed told
                                 us they either denied grievances outright at Step 1 or
                                 took no action. Seventy-four percent of Step 2
                                 designees12 we interviewed said they made no offers to

10
   Labor relations specialists believe this is particularly true at locations with a high volume of
grievance activity.
11
   Eighty-one percent represents responses made by 137 of 169 supervisors interviewed.
12
   Seventy-four percent represents responses made by 137 out of 186 Step 2 designees
interviewed.

                                                 7

                                      Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                             LM-MA-99-002



                               settle at Step 2. Employees and union stewards
                               confirmed that efforts were frequently not made to
                               settle grievances at these steps. We noted these
                               observations in every district we visited.

                               Employees and union stewards frequently commented
                               that “rubber stamping”13 decisions at Steps 1 and 2
                               undermined expeditious resolution of workplace
                               disputes. Some union officials viewed this as a
                               strategy employed by USPS officials to delay
                               settlement. In their opinion, this was especially true
                               where monetary remedies had been sought or union
                               officials had alleged that the national agreements were
                               violated to meet operational needs.

                               When offers were made at Step 1 in the cases we
                               reviewed, they were frequently accepted. For example
                               only five percent of union stewards and two percent of
                               employees interviewed indicated they rejected such
                               offers at Step 1. Similarly, nine percent of union
                               stewards and six percent of employees interviewed told
                               us they rejected offers made by Step 2 designees.
                               When questioned on why offers were rejected,
                               employees and union stewards indicated their
                               rejections were based on inadequate offers, while
                               supervisors and Step 2 designees attributed rejections
                               to uncooperative union representatives.

Supervisor and Step 2          Supervisors and Step 2 designees believed they were
Designee Authority             limited in what decisions they could make and the
                               types of issues they could resolve. Temporary
                               supervisors,14 for the most part, told us that they were
                               unsure of their authority in the grievance-arbitration
                               process. In contrast, Step 2 designees had a better
                               grasp of their authority. However, even Step 2
                               designees did not always understand the full scope of
                               their authority. They incorrectly indicated they could
                               not settle issues involving monetary settlements or
                               safety violations. Some district and plant managers
                               that we interviewed believed that their supervisors and

13
   Rubber stamping is defined as the practice of routinely denying grievances with little or no
effort made by management to discuss and resolve the issues.
14
   Temporary supervisors are known as “204-B’s.” Although we did not determine what
percentage of supervisors interviewed were “204-Bs,” we believe the percentage to be small
based on the years of supervisory experience reported by supervisors interviewed.

                                                8

                                     Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                     LM-MA-99-002



                              Step 2 designees had the authority to settle all issues,
                              but did not exercise it. Others acknowledged that
                              supervisors and Step 2 designees lacked authority on
                              certain issues.
                              Supervisors and Step 2 designees told us they lacked
                              authority to resolve grievances relating to the following
                              areas. They also shared the view that to settle many of
                              these issues was inappropriate.

                                 •     Letters of demand,
                                 •     Removals,
                                 •     Discipline associated with safety violations,
                                 •     Discipline related to time and attendance,
                                 •     Overtime,
                                 •     Staffing, and
                                 •     Crossing crafts.

                              Supervisors and Step 2 designees in all districts told us
                              that they lacked authority and believed it inappropriate
                              to resolve grievances involving letters of demand,
                              removals, and discipline associated with safety
                              violations or time and attendance at Steps 1 or 2. They
                              believe that settling such issues would compromise the
                              high standards of performance the organization has
                              established in these areas and reinforce bad behaviors
                              that could negatively impact operations and employee
                              performance. For example, USPS holds employees
                              financially liable for any shortages that occur in cash or
                              stamp stock for which they are accountable. When a
                              shortage occurs, employees are issued a letter of
                              demand for payment. According to supervisors and
                              Step 2 designees we interviewed, absolving employees
                              of the liability through the grievance process,
                              undermines the fiduciary responsibility of the
                              organization to properly manage its assets.

                              Supervisors and Step 2 designees in every district also
                              told us they lacked authority to settle grievances
                              involving payment for overtime, staffing decisions, and
                              crossing crafts. They indicated that while they are free
                              to provide make-up opportunities as outlined in
                              memoranda of understanding with some unions, they
                              are not authorized to pay individuals for overtime not
                              worked. Such situations would include cases where
                              additional opportunities for overtime did not exist or

                                                9

                                     Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                           LM-MA-99-002



                                  where individuals not on the overtime desired list are
                                  worked instead of individuals on the list. Similarly,
                                  supervisors and Step 2 designees told us that grieved
                                  staffing decisions and crossing craft complaints are
                                  outside their span of control to settle because they lack
                                  authority to create, convert or restore job positions. For
                                  example, they told us they could not resolve grievances
                                  involving the failure to convert part-time flexible
                                  assignments to full time positions or reverse district
                                  decisions to eliminate window clerk positions.

Supervisor and Step 2             Sixty-three percent of the supervisors we interviewed
Designee                          told us they denied grievances because their original
Independence from                 decisions were correct. In addition, supervisors in
Decisions Grieved                 every district told us they would deny grievances that
                                  challenged decisions made by their superiors or facility
                                  managers. The reluctance to reverse previous
                                  decisions was especially apparent with cases involving
                                  disciplinary actions initiated by the supervisor or Step 2
                                  designee. In fact, one supervisor explained that at his
                                  facility supervisors automatically deny disciplinary
                                  grievances. Two other supervisors told us that they
                                  had no recourse but to deny grievances concerning
                                  their Postmaster’s performance of bargaining unit work.

Impact of Relationships	 We also noted that poor relationships influenced the
                         effectiveness of the Step 1 and 2 meetings. We
                         interviewed both the employee and union steward, who
                         had been parties to a grievance in one district; they told
                         us that due to animosity, neither the supervisor nor the
                         Step 2 designee had spoken during their respective
                         meetings. Another grievance we reviewed included a
                         grievant that was hearing impaired. Despite her
                         request, the supervisor elected not to arrange for an
                         interpreter.

                                  In three districts,15 we noted reluctance on the part of
                                  USPS supervisors to negotiate with union stewards,
                                  whom they believed to be unreasonably adversarial
                                  and overly aggressive in past meetings. As a result,
                                  these supervisors viewed any attempts to resolve
                                  grievances with these stewards as a waste of time.


15
     We noted this practice in the Pittsburgh, Cincinnati, and Boston districts.

                                                  10
                                        Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                      LM-MA-99-002



                              When managers do not resolve grievances that should
                              be resolved at Steps 1 and 2, these disputes are
                              appealed to higher levels for settlement. As a result,
                              the grievance process becomes ineffective at resolving
                              disputes at the lowest practical step. Fifty-three
                              percent of the labor relations specialists we interviewed
                              believe that 51 percent or more of the cases they
                              reviewed at Step 3 should have been settled at earlier
                              steps of the grievance-arbitration process. Labor
                              relations specialists explained they are more
                              successful than supervisors or Step 2 designees in
                              settling grievances because they are independent from
                              operations and the decisions being grieved, and they
                              have no emotional attachment to the grievances.

                                        Observations - Supervisor Authority
Supervisors Lack              Eighty-two percent of the supervisors we interviewed
Authority                     believed they lacked authority to settle grievances at
                              Step 1. Fifty-seven percent indicated that their
                              superiors overrode or circumvented their authority to
                              settle grievances at Step 1.16 This occurred most
                              frequently where grievances involved monetary
                              settlements or reductions in disciplinary actions.
                              Temporary supervisors (204-B’s) are the most
                              vulnerable to having their authority circumvented
                              because they are less familiar with their
                              responsibilities under the grievance-arbitration
                              procedures.

                              Supervisors in every district provided examples of their
                              superiors circumventing their authority. A supervisor in
                              one district told us that the Postmaster at her facility
                              wanted to issue a “letter of warning” to an employee.
                              The Postmaster would not let her reduce the discipline
                              at the Step 1 meeting. A supervisor from another
                              district told us that he had been instructed by the MDO
                              and the Step 2 designee to deny a grievance involving
                              the use of part-time flexibles, even though the
                              supervisor believed that the grievant’s complaint was
                              valid. This grievance was subsequently settled in the
                              grievant’s favor at a higher appeals level. In another
                              district, a supervisor told us that his MDO has an
                              unwritten policy that all grievances are to be brought to
16
 These superiors included Postmasters, Station Managers, Managers of Distribution
Operations (MDOs), or Managers of Postal Operations (MPOs)

                                             11

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures                    LM-MA-99-002



                              him for disposition. Similarly, a supervisor from a
                              different district told us that he had been instructed to
                              elevate grievances to his MDO, and that his MDO had
                              ordered him not to settle a Step 1 grievance regarding
                              the posting of a holiday schedule. Another supervisor
                              in that same district told us that all monetary issues
                              have to be settled by his MDO.

Supervisor Decisions          Supervisors also believe that their superiors indirectly
Second-Guessed                control the outcome of the grievance by second­
                              guessing their decisions. They indicated this
                              eventually forces them to stop making settlement offers
                              at Step 1. A supervisor in one district told us he fears
                              making grievance decisions that upper management
                              does not like because it could destroy his career. This
                              belief was reinforced by a plant manager in one district
                              who stated, “Supervisors can resolve anything, but they
                              better make the right decisions or they will answer for
                              it.” In another district, a supervisor expressed concern
                              that upper management second-guessed her decisions
                              so frequently that she felt she lacked authority to settle
                              grievances. According to a district labor relations
                              specialist we interviewed, Step 2 designees in his
                              district are not allowed to settle grievances. As with
                              Postmasters, Step 2 designees are second-guessed by
                              MDOs. Several district labor relations specialists also
                              suggested that Step 1 and 2 responsibilities be
                              returned to labor relations staff because supervisors
                              and Step 2 designees are not going to reverse
                              decisions made by their managers to settle grievances.
                              Similarly, another district labor relations specialist told
                              us that it is difficult for individuals to make decisions
                              that would displease their bosses.

                              As long as supervisor authority to settle grievances can
                              be undermined, we believe that a large volume of
                              grievances will continue to be appealed. The potential
                              for circumvention will exist as long as supervisors and
                              Step 2 designees continue to be responsible for
                              hearing grievances that challenge decisions made by
                              themselves or their superiors.




                                             12

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                  LM-MA-99-002



Suggestions                   On the basis of our review, we suggest that the Vice
                              President, Labor Relations:

                              1.	 Emphasize that supervisors and Step 2 designees
                                  be more mindful of the Step 1 and 2 time limits
                                  prescribed by the grievance-arbitration procedures.
                                  At a minimum, Step 2 designees should clarify the
                                  issue(s) and the parties’ respective arguments in
                                  the Step 2 decision.

                              2.	 Ensure that individuals who are responsible for Step
                                  2 decisions have actual independence and authority
                                  to settle grievances.

                              3.	 Reassess the grievance procedures for disciplinary
                                  actions, considering the importance of ensuring
                                  independence and objectivity of the parties that
                                  have authority to resolve grievances.

                              We also suggest that the Vice President, Human
                              Resources:

                              4.	 Ensure that the performance evaluation system for
                                  USPS supervisors and managers includes
                                  compliance with the grievance-arbitration
                                  procedures.

                              5.	 Identify appropriate actions to be taken, such as
                                  training or counseling, when grievance procedures
                                  are not followed.

Management                    The Vice President, Labor Relations in commenting on
Comments                      a draft of this report (Attachment 1) stated that:

                                  •	 We will continue to project the importance of all
                                     management officials adhering to contractual
                                     obligations. This includes an emphasis on the
                                     efficient and effective operation of the grievance
                                     procedure.
                                  •	 The new grievance and arbitration tracking
                                     system will assist in monitoring both the
                                     timeliness of meetings and of decisions.
                                  •	 The NALC Joint Contract Administration Manual
                                     and other agreed-upon interpretations of the
                                     National Agreement will help grievance

                                             13

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                     LM-MA-99-002



                                     representatives to become aware of remedies
                                     upon which the national parties agree.
                                  •	 Efforts will continue to make management 

                                     representatives aware of the appropriate 

                                     remedies and their authority.

                                  •	 Recently concluded contract negotiations
                                     included a reassessment of the grievance
                                     procedure, and resulted in agreements with the
                                     APWU and NPMHU that we believe will enhance
                                     its efficacy. Steps taken include an in-depth
                                     examination of the propriety of discipline during
                                     Step 1 and 2 as well as deferral of suspensions
                                     (with the NPMHU) which removes one of the
                                     former impediments to resolution: the back pay.
                                     Because the grievance procedure is a negotiated
                                     term of the contract, other changes are not
                                     contemplated at this time.

                              The Vice President, Human Resources in commenting
                              on a draft of this report (Attachment 2) stated:

                                 •	     The executive and administrative schedule merit
                                        evaluation process encourages linking employee
                                        objectives to corporate goals. With the current
                                        emphasis on improving the workplace
                                        environment, we expect that many managers will
                                        develop individual objectives to improve contract
                                        compliance. We have avoided a top-down
                                        mandate of the content of individual objectives.

                                 •	     Labor Relations has recently developed a four­
                                        hour training program for first-line supervisors in
                                        collaboration with Human Resources’ Employee
                                        Development function.




                                                14

                                      Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures 	                LM-MA-99-002



Evaluation of                 Management’s comments were responsive to the 

Management                    issues raised in this advisory report. 

Comments

                              We appreciated the cooperation and courtesies
                              provided by your staff during this review. If you have
                              any questions, please contract me at (703) 248-2300.

                               //Signed//
                              Billy J. Sauls
                              Assistant Inspector General
                               for Employee

                              Attachments

                              cc:	 John E. Potter
                                   John R. Gunnels
                                   Alan B. Kiel




                                             15

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures      LM-MA-99-002




Major Contributors to This Report Were:




                                             16

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures      LM-MA-99-002
                                                            Attachment 1




                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures      LM-MA-99-002




                                              2

                                   Restricted Information
Effectiveness of USPS Grievance-Arbitration Procedures      LM-MA-99-002




                                              3

                                   Restricted Information
